<html>
<title> - SPECIAL ENVOY TO MONITOR AND COMBAT ANTI-SEMITISM ACT OF 2017; SAM FARR PEACE CORPS ENHANCEMENT ACT; ELIE WIESEL GENOCIDE AND ATROCITIES PREVENTION ACT OF 2017; PROTECTING DIPLOMATS FROM SURVEILLANCE THROUGH CONSUMER DEVICES ACT; INTERCOUNTRY ADOPTION INFORMATION ACT OF 2018; CAMBODIA DEMOCRACY ACT; AND BURMA ACT OF 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


SPECIAL ENVOY TO MONITOR AND COMBAT ANTI-SEMITISM ACT OF 2017; SAM FARR 
   PEACE CORPS ENHANCEMENT ACT; ELIE WIESEL GENOCIDE AND ATROCITIES 
PREVENTION ACT OF 2017; PROTECTING DIPLOMATS FROM SURVEILLANCE THROUGH 
 CONSUMER DEVICES ACT; INTERCOUNTRY ADOPTION INFORMATION ACT OF 2018; 
             CAMBODIA DEMOCRACY ACT; AND BURMA ACT OF 2018

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

              H.R. 1911, H.R. 2259, H.R. 3030, H.R. 4989,
                  H.R. 5626, H.R. 5754, and H.R. 5819

                               __________

                              MAY 17, 2018

                               __________

                           Serial No. 115-130

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                 ______
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
30-102 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a> 
                                            
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1911, To amend the State Department Basic Authorities Act of 
  1956 to monitor and combat anti-Semitism globally, and for 
  other purposes.................................................     2
  Amendment in the nature of a substitute to H.R. 1911 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................     5
H.R. 2259, To amend the Peace Corps Act to expand services and 
  benefits for volunteers, and for other purposes................     9
  Amendment in the nature of a substitute to H.R. 2259 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    26
H.R. 3030, To help prevent acts of genocide and other atrocity 
  crimes, which threaten national and international security, by 
  enhancing United States Government capacities to prevent, 
  mitigate, and respond to such crises...........................    51
  Amendment in the nature of a substitute to H.R. 3030 offered by 
    the Honorable Ann Wagner, a Representative in Congress from 
    the State of Missouri........................................    71
H.R. 4989, To require the Department of State to establish a 
  policy regarding the use of location-tracking consumer devices 
  by employees at diplomatic and consular facilities, and for 
  other purposes.................................................    80
H.R. 5626, To amend the Intercountry Adoption Act of 2000 to 
  require the Secretary of State to report on intercountry 
  adoptions from countries which have significantly reduced 
  adoption rates involving immigration to the United States, and 
  for other purposes.............................................    83
  Amendments to H.R. 5626 offered by:
      The Honorable Adam Kinzinger, a Representative in Congress 
        from the State of Illinois...............................    86
      The Honorable Bradley S. Schneider, a Representative in 
        Congress from the State of Illinois......................    87
H.R. 5754, To promote free and fair elections, political 
  freedoms, and human rights in Cambodia, and for other purposes.    88
  Amendment in the nature of a substitute to H.R. 5754 offered by 
    the Honorable Ted S. Yoho, a Representative in Congress from 
    the State of Florida.........................................    97
      Amendment to the amendment in the nature of a substitute to 
        H.R. 5754 offered by the Honorable Ted S. Yoho...........   105
H.R. 5819, To promote democracy and human rights in Burma, and 
  for other purposes.............................................   106
  Amendments to H.R. 5819 offered by:
      The Honorable Eliot L. Engel, a Representative in Congress 
        from the State of New York...............................   150
      The Honorable Joe Wilson, a Representative in Congress from 
        the State of South Carolina..............................   154

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................   180
Markup minutes...................................................   181
Markup summary...................................................   183
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   184

 
SPECIAL ENVOY TO MONITOR AND COMBAT ANTI-SEMITISM ACT OF 2017; SAM FARR 
   PEACE CORPS ENHANCEMENT ACT; ELIE WIESEL GENOCIDE AND ATROCITIES 
PREVENTION ACT OF 2017; PROTECTING DIPLOMATS FROM SURVEILLANCE THROUGH 
 CONSUMER DEVICES ACT; INTERCOUNTRY ADOPTION INFORMATION ACT OF 2018; 
             CAMBODIA DEMOCRACY ACT; AND BURMA ACT OF 2018

                              ----------                              


                         THURSDAY, MAY 17, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2167 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    And pursuant to notice, we meet today to markup seven 
bipartisan measures. Without objection, all members may have 5 
days to submit statements or extraneous materials on today's 
business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc, and so without objection the 
following items previously provided to members, and also in 
your packets, will be considered en bloc and are considered as 
read.
    They are H.R. 1911, the Special Envoy the Monitor and 
Combat Anti-Semitism Act, Smith Amendment 96 in the nature of a 
substitute; H.R. 2259, the Sam Farr Peace Corps Enhancement 
Act, Poe Amendment 87 in the nature of a substitute; H.R. 3030, 
the Elie Wiesel Genocide and Atrocities Prevention Act with 
Wagner Amendment 33 in the nature of a substitute; H.R. 4989, 
Protecting Diplomats from Surveillance Through Consumer Devices 
Act; <greek-l>and  deg.H.R. 5626, the Intercountry Adoption 
Information Act with the Kinzinger Amendment 28 and the 
Schneider Amendment Number 84; H.R. 5754, the Cambodian 
Democracy Act with Yoho Amendment 123 in the nature of a 
substitute and Yoho Amendment 125; and lastly, H.R. 5819, the 
Burma Act of 2018, Engel Amendment 98, and Wilson Amendment 60.
    [The information referred to follows:]
    
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. So I will now recognize myself to speak on 
today's business. First, I'd just like to mention on the 
Cambodian Democracy Act, I want to thank Chairman Yoho. I think 
this is a very important bill to support the people of 
Cambodia.
    Hun Sen aspires to be a tyrant there and he is behaving 
right now as a tyrant in terms of what he has done to the 
political opposition and to his people, and I am very proud to 
support this act, which will hold Hun Sen and hold his regime 
accountable for systematic human rights abuses.
    I also want to recognize in the audience today our 
colleague, Congressman Alan Lowenthal, who's been a leader in 
Congress on U.S.-Cambodia issues. So, Alan, thanks for being 
with us.
    Next, we have H.R. 5819, the BURMA Act. For over three 
decades, Burma has systematically denied the Rohingya even the 
most basic of human rights.
    Last year, this ethnic cleansing reached new horrific 
levels. The Burmese military drove 700,000 Rohingya from their 
homes, burning villages, raping women, and killing thousands.
    A Burmese commander told fleeing Rohingya, ``We will turn 
your village into soil,'' and, tragically, that's what they 
did.
    So I thank the ranking member, Mr. Engel, for introducing 
this important legislation aimed at stopping these horrific 
acts.
    I'd like to comment on the Intercountry Adoption 
Information Act. International adoption is an issue that 
impacts Americans across the country.
    I've been honored to help bring many families together and 
we played a role in going to the Congo in order to bring 
families back home here who were stranded there and we thank 
the members of this committee who participated in that.
    This act requires the State Department to report annually 
on countries that have enacted new laws or policies that would 
impact inter-country adoptions and this information, obviously, 
would have been very helpful, for example, when the Congo or 
when Ethiopia both adopted sweeping new laws that put on hold 
adoptions for American families and left the families stuck 
there.
    So I am glad to support this bill.
    Next, we have H.R. 2259, the Sam Farr and Nick Castle Peace 
Corps Reform Act. We have worked closely with Judge Ted Poe on 
this issue.
    This bill would ensure that Peace Corps volunteers have 
some say in where they are placed, to make sure that those 
volunteers are more aware of risks in the field, and that they 
have better access to qualified medical personnel when they are 
in the field.
    It also extends and enhances expiring provisions in the 
Kate Puzey Act to provide services to victims who have been 
victims of sexual assault.
    Our young men and women who volunteer with the Peace Corps 
deserve to have the information and support that they need as 
they represent our country overseas and this bill does that.
    Next, we consider H.R. 3030, the Elie Wiesel Genocide and 
Atrocities Prevention Act. The U.S. must be a world leader in 
efforts to prevent genocide, in efforts to prevent crimes 
against humanity, and this act improves interagency 
coordination, it bolsters training for our diplomats in the 
field, and it strengthens congressional oversight to make 
programs aimed at preventing global atrocities far more 
effective than they are today.
    Next, we have Chairman Smith's H.R. 1911. As anti-Semitism 
is on the rise around the world, this bill ensures that the 
Special Envoy to Monitor and Combat Anti-Semitism has direct 
access to the Secretary of State. Elevating this office will 
help keep our promise of ``never again.''
    And finally, we have H.R. 4989, the Protecting Diplomats 
From Surveillance Through Consumer Devices Act. This bill 
rightly addresses the need for the State Department to develop 
a clear modern policy regarding the use of devices that may 
have GPS tracking capability--frequently do--and I thank 
Representative Castro for this timely measure, which will 
ensure that the department's policies keep pace with evolving 
technology. Why? Because we need to keep our men and women safe 
overseas.
    And I now recognize the ranking member, Mr. Engel of New 
York, for his remarks.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this markup, and let me thank our colleagues for all the hard 
work on the measures we are considering this morning.
    I'll start with the bill I introduced. I want to thank the 
chairman again for bringing it forward today and I am glad we 
are going to address the ongoing tragedy in Burma.
    This crisis has been smoldering for years. The Rohingya in 
the northern part of Burma's Rakhine State have endured hatred, 
bigotry, and systematic discrimination. They've had their 
citizenship revoked and have been pushed to the margins of 
society.
    Last August, the fire began to burn out of control with the 
Burmese military's violent crackdown on the Rohingya, driving 
nearly 700,000 people into Bangladesh, nearly 80 percent women 
and children, many of whom are now victims of horrific gender-
based violence.
    Humanitarian workers expect up to 40,000 births resulting 
from rape in the refugee camps. That is just horrific, it is 
gut wrenching, and shame on us. The United States has slammed 
the door on refugees when Bangladesh, one of the most densely 
populated countries in the world, has welcomed these people 
with open arms.
    The administration wants to slash resources for combating 
gender-based violence. It has cut off funding for the U.N. 
Population Fund, which works in refugees camps to provide 
access to vital services--things so basic as making sure women 
have a safe place to shower.
    So no thanks to us, the U.N. has requested more than $1 
billion to meet needs just this year, funding which would 
provide round-the-clock lifesaving assistance.
    But with the coming rainy season threatening to wipe out 
the rickety infrastructure around these desperate people, there 
is no end to this tragedy in sight.
    So we need to do more to alleviate this crisis. We also 
need to remember this crisis is manmade. It is ethnic cleansing 
and many believe it is genocide. Nothing has been done to hold 
perpetrators accountable.
    The Burmese civilian government has become more closed, not 
more open, since this tragedy, and meanwhile, our 
administration seems reticent to hold perpetrators accountable 
and publicly call for justice.
    It's unacceptable. It's a betrayal of our values when we 
see this sort of abuse. There must be consequences.
    My bill would dole out these consequences in the form of 
new sanctions against Burmese military and security forces 
involved. It would limit American military engagement with 
Burma's military, promote civil society, push a political 
reform, and require a full accounting of what's taken place.
    I am grateful for the bipartisan collaboration in advancing 
this bill and I ask all members for their support and I thank 
the chairman for helping to push this bill forward.
    Next, I want to thank Chairman Yoho of the Asia and the 
Pacific Subcommittee and Congressman Lowenthal for bringing 
forward the Cambodia Democracy Act. I want to recognize Mr. 
Lowenthal, who is the lead Democratic co-sponsor of H.R. 5754, 
the Cambodia Democracy Act, who was here.
    He was once a member of this committee and welcome back to 
the Foreign Affairs Committee. Thank you.
    For far too often, we see authoritarian leaders following 
China's lead, abandoning democracy in pursuit of short-term 
political gain.
    This bill makes existing sanctions permanent to hold 
Cambodia's leaders accountable for their crackdowns on 
democracy and stripping the Cambodian people of their rights.
    I support this bill and I urge all members to do the same.
    Next, I am a proud original co-sponsor of the Special Envoy 
to Combat and Monitor Anti-Semitism Act. Every day, more and 
more alarming anti-Semitic attacks shock the world and yet the 
Special Envoy position is still vacant.
    That's outrageous. We must have a senior official to push 
back against the intolerance and hatred of anti-Semitism. This 
bill would elevate the position and require the President to 
put forward a nominee no more than 120 days after a vacancy.
    American leadership is needed in the fight against anti-
Semitism. The measure has my strong support. History has shown 
that failing to address anti-Semitism can lead to violence and 
genocide as a foreign policy priority to prevent these 
tragedies.
    So I thank Representatives Wagner and Crowley for authoring 
the Elie Wiesel Genocide and Atrocities Prevention Act, which 
would improve our ability to prevent and respond to genocide 
and other horrific mass atrocities.
    Let's work on harnessing American capabilities to stop 
these tragedies before they start. I urge my colleagues to join 
me in supporting this bill.
    Next, let me thank Congressmen Poe and Kennedy for their 
bill, the Sam Farr and Nick Castle Peace Corps Enhancement Act. 
This bill works to improve the health, safety, and security of 
Peace Corps volunteers.
    The Peace Corps represents America's best values around the 
world. Volunteers dedicate their time to promote people-to-
people diplomacy and community-based development in far corners 
of the world.
    This is one of our most cost-effective efforts and we 
should do everything we can to take care of these committed 
young public servants. I very much support this bill.
    I am also glad to support the Intercountry Adoption 
Information Act. Too often we hear heart wrenching stories of 
American families whose adoption process was halted by a 
foreign government's change in policy.
    These families are often left in the dark when these 
changes happen. This bill presents a straightforward fix, 
requiring the State Department to provide this information that 
affects prospective adoptive American families.
    And lastly, I'd like to thank Mr. Castro for introducing 
the Protecting Diplomats From Surveillance Through Consumer 
Devices Act.
    This bill would help the Department of State prevent our 
adversaries from tracking American diplomats through their GPS-
enabled devices.
    From FitBits and smart watches to phones in cars, most of 
us have at least one tracking device with us at all times. 
Obviously, that can be a security risk. This common sense 
measure would make sure the department takes necessary steps to 
tackle this problem.
    These are all good measures in front of us today. I support 
them all. I thank the chairman for his hard work and I urge all 
members to support them as well.
    I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We go to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel. I offer my support for all of the bills 
under consideration and will speak briefly in support of three 
of them.
    I am proud to be a sponsor of my friend, Chris Smith's, 
bill, H.R. 1911, the Special Envoy to Monitor and Combat Anti-
Semitism Act of 2017.
    This elevates the critical position to the rank of 
Ambassador. This bill has broad bipartisan support including 
from many members of our committee and from all the co-chairs 
of our bipartisan task force for combating anti-Semitism.
    As a fellow founding member and co-chair of the task force, 
along with Ted Deutch, Chris, and Ranking Member Engel, this is 
an issue that is of utmost importance, given the current 
climate in Europe and elsewhere toward Jews.
    This vital position has remained vacant since President 
Trump took office and that is woefully inadequate. The United 
States is a leader in fighting anti-Semitism and we condemn all 
forms of this ancient bigotry.
    But sometimes our message falls far short when other 
countries see that our own administration does not view this 
position as one that is important enough to fill.
    We need our Special Envoy front and center working with 
other governments to help them address and fight anti-Semitism.
    At a time when we see vicious attacks against Jews in 
France and other countries in Europe and when Jewish leaders 
are issuing warnings to their communities to not show outward 
signs of their religious identity, we need American leadership 
and American pressure to help counter this hatred.
    But we cannot do that when we have individuals working part 
time, unable to devote the requisite amount of time to this 
issue. That is why we need the Special Envoy and that is why we 
need that position filled immediately.
    Not only does it require full time attention but it is 
vital that we have someone at the Ambassador level ranked in 
that position so they have access to the highest level 
officials in other countries.
    We need to show other nations how serious we are in taking 
this issue head on and, as such, we need to bestow upon that 
individual who will take this role the appropriate rank and 
title so they can cut through the bureaucratic red tape of 
other nations and have the serious conversations that need to 
be had.
    I am also pleased that my language adding a deadline for 
the appointment--90 days from the enactment of this act and 120 
days from when this position becomes vacant--that has been 
included.
    And as we have seen not just with this administration but 
previous administrations have allowed this statutorily mandated 
position to remain open for an extended period of time.
    That is why it's important that we put a deadline for this 
appointment. I urge my colleagues to support Chris' bill. I 
urge the administration to fill this position immediately.
    I also want to offer my strong support to Ambassador 
Wagner's bill, H.R. 3030, the Elie Wiesel Genocide and 
Atrocities Prevention Act, of which I am proud to be a co-
sponsor.
    Ambassador Wagner's bill takes necessary and overdue steps 
to make preventing genocide and preventing atrocities a 
priority in our foreign policy.
    For too often and in too many places, these acts are met 
with indifference or neutrality--the kind of neutrality that 
the bill's namesake rightly said only encourages more torment 
and abuses.
    As Holocaust survivor Elie Wiesel once said, whenever men 
and women are persecuted because of their race, religion, or 
political views, that place must at that moment become the 
center of the universe.
    Whenever and wherever these acts are occurring we must work 
together and ensure that the United States is at the forefront 
with the full weight of our foreign policy to prevent them from 
ever happening again.
    It is a core national security interest, it is our moral 
responsibility, and I commend always Ambassador Wagner for her 
work on this issue.
    And finally, some words to offer my strong support for 
Ranking Member Engel and Steve Chabot's H.R. 5819, the BURMA 
Act of 2018, of which I am also proud to be a co-sponsor.
    As the former chairman of the Asia and Pacific 
Subcommittee, Steve has been a tireless champion on human 
rights in Burma. I want to commend him and the ranking member 
for their work on this bill.
    The Burmese military ethnic cleansing campaign is a crime 
against humanity, exactly the type of atrocity that Ambassador 
Wagner's bill is seeking to prevent.
    Among other provisions, this bill would authorize 
humanitarian assistance for victims of the Burmese military 
campaign, limit security assistance with security forces, and 
impose targeted sanctions against those responsible for these 
serious human rights abuses.
    We cannot allow this issue to go on unaddressed. I urge my 
colleagues to support this bill and all the measures before us 
today.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Ileana.
    Mr. Brad Sherman of California.
    Mr. Sherman. Mr. Chairman, thank you for bringing forth 
outstanding bills. I am pleased to co-sponsor all of them.
    As to the Special Envoy to Monitor and Combat Anti-Semitism 
Act, I commend Mr. Smith and Schneider. This is an important 
office. It ought to be upgraded to the rank of full Ambassador 
and we need to make sure that the President fills the position.
    I've seen this office do outstanding work, particularly 
during the year and a half in which my wife served as the 
Deputy Special Envoy.
    The two bills to deal with Asia and to come through the 
Asia and the Pacific Subcommittee--the Cambodia Democracy Act--
I want to commend not only Mr. Yoho but also Mr. Lowenthal. He 
has been a constant voice for human rights in Cambodia, and I 
agree with him that Hun Sen's attacks on democracy need to end 
and reporters, among other politically imprisoned individuals, 
need to be released.
    As to the BURMA Act, I commend the ranking member and Mr. 
Chabot, and we may have to go beyond this bill. As long as 
Burma refuses to provide citizenship and protection for the 
Rohingya, we have to wonder whether northern Rakhine State 
should be part of Burma or whether its transfer to the 
sovereignty of Bangladesh might be necessary in order to assure 
that the people who have lived there for generations have 
citizenship and protection. I say that knowing that we are 
loathe to change international borders.
    The Protecting Diplomats from Surveillance Act is an 
important bill as is the Sam Farr Peace Corps Enhancement Act. 
First it's named for Sam Farr, our California colleague, who 
served in the Peace Corps and then was such an effective 
advocate for the Peace Corps.
    And second, the bill focuses on the need for medical care 
for those serving abroad. My wife served in Togo in the Peace 
Corps and found it necessary to get medical care and it was 
quite difficult and her service was interrupted.
    So the idea of making sure that medical care is available 
is an important addition to the Peace Corps' government 
statutes.
    With that, I yield back.
    Chairman Royce. Thank you.
    We go to Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
for posting this important bill, H.R. 1911, to take the Special 
Envoy to Combat and Monitoring Anti-Semitism and create a 
position of Ambassador-at-Large.
    I want to thank Brad Schneider for being the principal 
Democrat co-sponsor. I deeply appreciate that and, of course, 
as Ileana Ros-Lehtinen, one of the other sponsors, pointed out, 
Eliot Engel and Ted Deutch, all of us who were part of this 
coalition trying to stop anti-Semitism--a bipartisan one--are 
all co-sponsors of this bill.
    And all 80 members, 25 members of this committee, and 
leading Jewish organizations and other human rights groups are 
all for it as well.
    Mr. Chairman, my friend and great former Soviet refusenik--
and I actually went to the camp where he was, Perm Camp 35, in 
the Ural Mountains in the 1980s--he testified at two of my 
hearings, and I've had several.
    He said that we need to expand our understanding as to what 
anti-Semitism is. It continues to fester and worsen with 
regards to hatred toward Jews--men, women, and children--simply 
because they are Jewish.
    But he also said much of the criticism directed at Israel 
is also laden with anti-Semitism and said there are three D's--
a 3 D test that we need to apply--and that is the three D's of 
modern anti-Semitism: Demonization of Israel, double standard, 
and delegitimization--in other words, not right to exist.
    I would point out to my colleagues that Rabbi Andy Baker, 
the director for international Jewish affairs for the American 
Jewish Committee and the personal representative for combating 
anti-Semitism for the Organization for Security Cooperation in 
Europe, which I am the co-chair of the U.S. delegation, he has 
said, ``We continue to see physical and even lethal attacks on 
Jews in Europe, efforts to restrict or ban elemental religious 
practices, and emboldened extremist political parties with an 
anti-Semitic agenda.''
    Even as European governments have come to recognize the 
dangers facing their Jewish communities, many still have failed 
to devote the necessary resources to protect them or to be 
clear-eyed in recognizing the sources of the problem.
    According to B'nai B'rith International, unfortunately, we 
continue to see a dramatic growth of anti-Semitism, 
particularly in Europe and the Islamic world.
    The scourge has reached its highest level since World War 
II. B'nai B'rith International--and then they go on to talk 
about what they are doing.
    They also pointed out in Canada last year was a record-
breaking year for anti-Semitism in Canada, according to their 
new audit.
    There is a need for a comprehensive aggressive robust 
effort by the United States. I would point out to my colleagues 
in 2004 Congress passed and signed into law the Global Anti-
Semitism Review Act of 2004. I was the prime author of the 
provisions that created both the Office to Monitor and Combat 
Anti-Semitism in the State Department and the position of 
Special Envoy to Monitor and Combat Anti-Semitism to lead it.
    H.R. 1911, however, would elevate the Special Envoy to 
Ambassador, and that gravitas makes a difference both within 
the building and when he or she takes this message throughout 
the world.
    It would mandate that the Special Envoy serve as the 
primary advisor to the United States Government, including the 
Secretary of State, on monitoring and combating anti-Semitism 
in foreign countries and coordinate efforts across the 
government.
    It also would prohibit the Special Envoy from being double 
hatted, something that we faced early on after the 2004 act. 
Give it to somebody else. Expand their portfolio. That dilution 
of the mandate weakens the efforts.
    I would also point out that we have language saying that 
the envoy--and that would be an Ambassador--needs to be 
nominated within 90 days of the enactment of this act because 
we have had unbelievable delays no matter who is President.
    And I would point out Bush took 583 days, Obama 307 days, 
and then when there was a change 227 days after that when the 
one that he originally had in the position left.
    Long delays--nobody leading the ship or being at the helm. 
I would point out, however, that when Special Envoys Greg 
Rickman, Hannah Rosenthal, and Ira Foreman had the job, they 
did a tremendous job and were the eyes and ears and the were 
the voice of our Government in combating this scourge.
    I want to thank everyone for doing this and backing it. We 
do have a great deal of support for it, and the time has come. 
There should be no further delay.
    We do call on President Trump. We did--all of us asked 
Secretary Tillerson to move in this direction. We are now 
asking Secretary Pompeo to make this appointment and to do it 
immediately, and then, God willing, this becomes law, we can 
then work to elevate that Special Envoy to the Ambassador.
    Thank you.
    Chairman Royce. Thank you.
    We go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. Just I want to thank 
you for putting all these bills on the agenda today. Glad to 
sponsor as an original co-sponsor or as a co-sponsor of all of 
them.
    I particularly want to highlight four. The BURMA Act--
really important that we support the democratic transition 
while also holding accountable those that have engaged in 
unbelievable violence against part of the population. I think 
this bill strikes that balance.
    The Sam Farr Peace Corps Enhancement Act--I was privileged 
to work with my friend and colleague, Judge Ted Poe, a number 
of years ago in the previous administration in helping Peace 
Corps work through a sexual assault policy.
    This bill adds to that and honors our former colleague, a 
very gentle and wonderful man, Sam Farr.
    The Elie Wiesel Genocide and Atrocities Prevention Act--
Elie Wiesel was a towering figure of the last century and a 
survivor of the Holocaust who, out of that incredible 
experience, nonetheless understood how to fight persecution 
while promoting atonement and trying reconciliation for warring 
parties, and it's fitting that we should name this bill after 
him.
    And finally, the Cambodia Democracy Act--I was privileged a 
number of years ago to work on a project with the National 
Democratic Institute in Cambodia to help develop the first 
policy guidelines and legislation government local elections.
    It's very sad for me to see it sliding back by the Hun Sen 
government in Cambodia and, hopefully, this legislation will be 
the building block for a robust U.S. policy and allied policy 
to stop that slide and to return to democratic tradition.
    I thank the chair.
    Chairman Royce. Thank you, Mr. Connolly.
    Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman, and thank you for 
holding this markup today, and I support H.R. 5819, the BURMA 
Act.
    It's a bill that we worked with Mr. Engel and the chair, 
Mr. Royce, and other members. I think this is really an 
important bill and it holds the perpetrators of the crimes 
committed against the Rohingya Muslims accountable in a strong 
and meaningful way.
    The news from Rakhine State in Burma and in the Cox's Bazar 
in Bangladesh regarding the humanitarian crisis has been 
nothing short of abysmal.
    As former chair of the Asia and Pacific Subcommittee, I'd 
point out that this ongoing crackdown is only the most recent 
persecution of the Rohingya Muslims but it's certainly the 
worst.
    The Rohingya fled to neighboring Bangladesh and nearly 
700,000 new refugees are living on only a few thousand acres, 
and although the Rohingya continue to display their grit and 
resolve, their living conditions are horrendous--just 
unspeakable.
    I believe it's necessary to point out that we had sanctions 
in place against Burma's military for years. Throughout Burma's 
military rule, we imposed a number of increasingly severe 
sanctions designed to specifically target the military and its 
leaders and economically isolate them from the rest of the 
world.
    In large part, these sanctions worked, and the people of 
Burma had free and fair elections that brought Aung San Suu Kyi 
and the NLD to power.
    Unfortunately, the previous administration quickly touted 
Burma as a success story and then, regrettably, almost 
immediately relaxed restrictions on their military.
    A number of us warned--at the time--that this democratic 
transformation was not complete and that the former President's 
optimism was premature.
    Unfortunately, this concern ultimately came true. There is 
no question that the plight of the Rohingya was caused by the 
Burmese military officials and their allies.
    Women and children have been reported being raped. They 
watch the murder of their sons and husbands. There are reports 
that the Burmese military has committed truly unspeakable acts 
against civilians including babies and children.
    One thing is clear. This is textbook genocide. It appears 
to be the worst ethnic cleansing of the 21st century. So that 
is precisely why the BURMA Act of 2018 is so fundamentally 
important.
    Sanctions must be brought against the perpetrators of these 
crimes. We must show the world that these actions will not go 
unpunished. Many provisions in this bill are very important.
    However, I'd like to highlight a particular section and 
that's forfeiture of assets and property, and I want to thank 
my staff and my colleagues on this committee and also on the 
Judiciary Committee and we worked with them and their staff. We 
want to thank them for their cooperation in insisting that this 
language be included in the bill. It will be crystal clear to 
the Burmese military officials that are responsible for this 
senseless violence that one way or another they will pay for 
their crimes.
    Furthermore, it's my hope that proceeds earned through the 
forfeiture of property provisions will eventually be used for 
assistance and restitution for the very people the Burmese 
military have victimized.
    So I would urge my colleagues to support the BURMA Act, and 
then I, with the short time I have left here, I'd like to 
mention as co-chair of Congressional Caucus on Cambodia--and I 
again want to, as others have already recognized, Mr. Lowenthal 
for his hard work in that area.
    We worked together in a bipartisan way to help the people 
of Cambodia in a whole range of ways and so I want to mention 
the Cambodia Democracy Act and commend Chairman Yoho for his 
hard work and leadership on that and also Mr. Lowenthal and 
everyone who contributed to this legislation for their hard 
work.
    The Cambodia Democracy Act demonstrates our continued 
commitment to the Cambodian people by targeting sanctions on 
Hun Sen and his cronies who have systematically worked to 
eliminate Cambodia's democracy.
    Further, with Cambodia's election now only a few months 
away, at the end of July, this legislation is very timely and 
sends a clear message that we will not tolerate such lawless 
actions and I would urge my colleagues to support it.
    I yield back.
    Chairman Royce. Thank you.
    Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Chairman Royce, Ranking Member Engel, thanks for bringing 
these bills forward. I am proud to support all of the measures 
today and will speak briefly on just four of them.
    First, I wanted to thank Chairman Yoho for the Cambodia 
Democracy Act of 2018, and given the ongoing threats in 
Cambodia to free and fair elections this summer, the challenges 
to a free and independent press and the lack of respect for 
NGOs, I am grateful to the leadership of our colleague, 
Representative Lowenthal, who's here and has introduced this 
bill with Chairman Yoho for taking on a vitally important issue 
and showing the respect for human rights that the people of 
Cambodia deserve.
    I am also proud do co-sponsor the Elie Wiesel Genocide and 
Atrocities Prevention Act and I would recognize Ambassador 
Wagner for her work on this bill.
    Out of the darkness of the Holocaust, Elie Wiesel carried 
the ``never again'' banner to prevent genocides or mass 
atrocities in the future.
    With his support, we created the United State Holocaust 
Memorial Museum--a living memorial to those who perished in the 
Holocaust and a research and education center to cover mass 
atrocities that may be taking place right in front of our eyes.
    Tragically, even in 2018 these atrocities continue and we 
don't need to look any further than Burma. Civilians continue 
to be targeted based on their religion, race, ethnicity, or 
some other criteria that drives people to commit mass murder.
    If we want to be able to say and mean, ``never again,'' 
then we need to strengthen our laws and empower the government 
officials to carry it out.
    This bill is a significant step in that direction. It 
states unambiguously that genocide or mass atrocities occurring 
in another part of the world pose a threat to our national 
security.
    The methodical and deliberate mass killing of civilians is 
not only egregious and immoral, it is a crime under 
international law and a threat to what we as Americans stand 
for.
    This bill will also train our Foreign Service officers, 
often on the diplomatic front lines, to identify warning signs 
and to direct the administration to report to Congress and the 
American people what steps it has taken to prevent or stop mass 
atrocities. I urge my colleagues to support this legislation 
and improve our Government's response to mass atrocities around 
the world.
    Next, I'd like to express my support for the BURMA Act. The 
plight of the Rohingya has been painful to watch and I am 
especially discouraged that it is happening in a country that 
once appeared to be on the track toward a peaceful civilian-led 
democracy.
    The Burmese military's treatment of the Rohingya people and 
the resulting mass exodus into Bangladesh represents a travesty 
on a shocking scale.
    I am very proud to co-sponsor this legislation. I believe 
it's important to codify the human rights abuses committed by 
the Burmese military and security forces while outlining the 
policy of the United States to support Burma's transition to 
real democracy.
    The bill's emphasis on the safe return of the Rohingya to 
Burma and the promotion of freedom of the press are vital and 
important steps.
    Only until all of the people are included as full citizens 
and are allowed to return, acts of ethnic cleansing are ended, 
and freedom of religion and the press are ensured will Burma 
again resemble a nation moving toward real democracy.
    And finally, I'd like to voice my support for the Special 
Envoy to Monitor and Combat Anti-Semitism Act, a bill of which 
I am an original co-sponsor.
    I want to recognize Congressman Chris Smith for leading 
this bill with Chairman Ileana Ros-Lehtinen, my many 
colleagues, including Ranking Member Engel, Congressman 
Schneider, Congressman Lowey, Congressman Veasey, Roskam, 
Weber, and Congressman Bilirakis.
    It's been well over a year now and the administration has 
failed to nominate a Special Envoy to combat anti-Semitism 
around the world. It's unacceptable. The position was created 
in 2004 with bipartisan support by provisions authored by 
Congressman Smith.
    This is a law that cannot be ignored. The Special Envoy and 
its staff are tasked with monitoring worldwide anti-Semitism, 
building coalitions by working with governments and NGOs, and 
acting as our nation's leading global advocate for combating 
anti-Semitism.
    This, in a time when we are seeing more anti-Semitic 
activity rise from the political left and right. We are hearing 
appalling stories like the Holocaust survivor who was brutally 
murdered in her apartment and our Government cannot be silent 
in moments like these.
    The United States has historically been a leader in calling 
out anti-Semites and pushing governments to do more to protect 
their Jewish citizens.
    This is not a time to give up that leadership role. We have 
to address it when this troubling--address this troubling trend 
with action.
    Jews are often the canary in the coal mine. Hatred of a 
country's Jewish citizens confirms the presence of hatred in 
that country and everyone in those countries share in its 
interest in combating this and all hatred.
    With this bill, Congress recognizes that this is a problem 
worldwide, that it is our Government's obligation to combat 
anti-Semitism, to defeat this bigotry and defend Jewish 
communities.
    Filling this position must be a top priority and I urge my 
colleagues to vote for this bill, and I thank the chairman.
    Chairman Royce. Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    I am grateful to Chairman Ed Royce and Ranking Member Eliot 
Engel for holding this markup on critical issues such as 
protecting human rights, enhancing diplomat and Peace Corps 
volunteers' security and safety, and improving international 
adoption procedures, all of which I am grateful to co-sponsor.
    I especially want to thank Congresswoman Ann Wagner for 
introducing the Elie Wiesel Genocide and Atrocities Prevention 
Act. Elie Wiesel, who passed away less than 2 years ago, 
survived both Auschwitz and Buchenwald Nazi concentration camps 
after having lost his family to the camps.
    This legislation contributes to his memory by requiring the 
U.S. Government to train Foreign Service officers to spot 
warning signs of genocide and to provide poor nation 
information sharing among the intelligence community in order 
to prevent future crimes against humanity.
    I also want to thank Congressman Chris Smith for his 
providing the Special Envoy to Monitor and Combat Anti-Semitism 
Act of 2017. While the Department of State should be routinely 
setting the instruction and roles of numerous Special Envoys, 
some Special Envoys such as the envoy to monitor and combat 
anti-Semitism will operate best by having Ambassador status 
with direct access to the Secretary of State.
    Sadly, we see anti-Semitism today as there is criticism of 
the U.S. Embassy being located in Jerusalem.
    Lastly, I want to express my gratitude to Ranking Member 
Eliot Engel for introducing the BURMA Act of 2018. This act 
states for the record that the Burmese military is responsible 
for the murder and ethnic cleansing of the Rohingya in Burma 
and provides for sanctions in response to such crimes until 
Burma becomes more transparent.
    Burma should also deliver on its nonproliferation 
commitments by fully disclosing its past and present nuclear 
activities to international inspectors, which was included by 
an amendment I provided.
    Today's markup legislation shows the world that the United 
States cares deeply about the priorities we place on human 
rights and I urge their passage.
    I now yield the balance of my time to Judge Ted Poe.
    Mr. Poe. I thank the gentleman from South Carolina.
    I want to speak specifically on the Sam Farr/Nick Castle 
Peace Corps Act. I want to thank Congressman Joe Kennedy for 
his bipartisan leadership in this and the Kennedy family and 
their long history of supporting the Peace Corps.
    Mr. Chairman, unfortunately, over the last few years, bad 
things have happened to our Peace Corps volunteers when they go 
abroad and we solved some of those problems with the Kate Puzey 
Act. This is a follow-up to that legislation.
    I want to thank the Health and Justice for Peace Corps 
volunteers and the National Peace Corps Association for their 
input and information on what is happening to our Peace Corps 
volunteers.
    This legislation does several things. It requires that we 
provide qualified medical doctors for our Peace Corps 
volunteers. It increases the time for the Sexual Assault 
Advisory Council to another 5 years.
    It provides provisions in the protection of sexual assault 
and harassment as revealed in the Office of Special Counsel 
report detailing what has happened to our Peace Corps 
volunteers abroad and when our Peace Corps volunteers return to 
America, some with injuries and serious medical issues, make 
sure they are taken care of and the bureaucratic red tape of 
the Federal Government gets out of the way so they can be 
treated.
    And I also want to thank the chairman for his leadership in 
this legislation. I ask unanimous consent to provide my entire 
written statement on this bill and these other bills into the 
record.
    Chairman Royce. Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
and Ranking Member Engel for bringing these bills before the 
committee for markup. I am a proud co-sponsor of all the bills 
and would like to specifically speak to four.
    First, H.R. 1911, the Special Envoy to Monitor Anti-
Semitism Act of 2017, which raises the status of the Special 
Envoy to Ambassador in recognition of the position's important 
role and responsibility.
    Earlier this year, I joined the ranking member and several 
other of my colleagues in calling on the President to 
prioritize the appointment of the Special Envoy to monitor and 
combat anti-Semitism.
    Unfortunately, we are still awaiting a nomination on this 
position. Since the position of Special Envoy to monitor and 
combat anti-Semitism was created in 2004, anti-Semitism and 
anti-Semitic attacks throughout the world have become more 
frequent, violent, and deadly. These developments are 
completely unacceptable.
    In the United States, the number of anti-Semitic incidents 
rose 57 percent in 2017--the largest single-year increase on 
record.
    Internationally state-sponsored Holocaust distortion and 
denial taking place in Europe, particularly in Poland and 
Ukraine, has coincided with the increasing incidence of anti-
Semitic language and actions.
    The United States must assume a leadership position by 
firmly standing against anti-Semitism, upholding values that 
are fair and just to all, and the Office of the Special Envoy 
continues to be a crucial contributor to the development and 
implementation of policies designed to combat anti-Semitism 
around the world.
    H.R. 3030, the Elie Wiesel Genocide and Atrocities 
Prevention Act, and H.R. 5819, the BURMA Act, are also 
incredibly important.
    Elie Wiesel was a Romanian Nobel Prize-winning writer, 
teacher, and activist best known for his memoir ``Night'' in 
which he hauntingly recounted his experiences surviving the 
Holocaust.
    In one passage, he described his thoughts about the murders 
going on around him.
    He wrote,

        ``Never shall I forget that smoke. Never shall I forget 
        the little faces of the children whose bodies I saw 
        turn into wreaths of smoke beneath the silent blue sky. 
        Never shall I forget those flames which consumed my 
        faith forever. Never shall I forget the nocturnal 
        silence which deprived me for all eternity of the 
        desire to live. Never shall I forget those moments 
        which murdered my God and my soul and turned my dreams 
        to dust. Never shall I forget these things, even if I 
        am condemned to live long as God himself. Never.''

    I wish I could say that the events Mr. Wiesel recounted 
were singular and only a part of our past. Unfortunately, 
genocides and mass atrocities continue to occur.
    I was in Burma last November and visited Myanmar as well as 
Bangladesh and saw firsthand the brutal efforts underway to 
eradicate the Rohingya population and the most horrifying of 
unspeakable brutality being caused by the Burmese military 
against the Rohingya population and it is important that the 
world hear the United States strongly condemn this and take 
action to hold those accountable, and I am very proud to be a 
cosponsor of both H.R. 3030 and H.R. 5819.
    These bills not only reaffirm our nation's commitment to 
prevent and mitigate acts of genocide and other human rights 
atrocities but puts actions behind our words.
    By strengthening our nation's ability to identify, address, 
and respond to the drivers of these atrocities, we hope to 
prevent further mass atrocities.
    By empowering the President to sanction perpetrators of 
genocide, we hope to bring accountability and an end to the 
current situation in Burma and offer these governments the 
possibility of joining the international community and holding 
perpetrators of mass atrocities and genocides accountable, 
because, like Mr. Wiesel, we should never forget.
    And finally, the Cambodian Democracy Act--I am proud to be 
a co-sponsor of this legislation, which also authorizes 
sanctions against individuals found to have undermined 
democracy in Cambodia or to have committed serious human rights 
violations associated with undermining democracy.
    I want to acknowledge the leadership of Chairman Yoho and 
Congressman Lowenthal, who's with us today, who has been a 
champion not only of this legislation but of respect for human 
rights here in the United States and around the world, and we 
thank him for his leadership.
    With these bills we affirm U.S. leadership in countering 
atrocities, supporting democratic development, and supporting 
human rights. I am pleased to support each of these bills being 
considered today and urge their passage, and thank you, Mr. 
Chairman.
    And I yield back.
    Chairman Royce. Thank you, David.
    We go now to Mike McCaul of Texas.
    Mr. McCaul. I thank you, Mr. Chairman and Ranking Member, 
for holding today's markup on these bipartisan measures.
    I'd also like to thank Congressman Castro and his staff for 
their hard work on the Protecting Diplomats from Surveillance 
Through Consumer Devices Act and I am proud to be the lead co-
sponsor of this bill.
    It's a simple yet a necessary response to the revelations 
in January. GPS-enabled electronic devices such as FitBits and 
Jawbones exposed diplomatic and military personnel to security 
vulnerabilities abroad.
    The data from these devices are publicly available, 
revealing the locations of key U.S. Government facilities 
across the globe and the movements of our personnel.
    As such the bill requires the Secretary of State to 
establish a policy concerning the use of location-tracking 
consumer devices including GPS at U.S. diplomatic and consular 
facilities.
    So I'd like to thank the State Department also for taking 
this matter seriously. I think it's a vulnerability that we 
need to close the gap on to protect our diplomats and our 
security abroad and I look forward to congressional action in 
protecting them as they serve our nation.
    So, Mr. Chairman, with that, thank you for moving these 
bills through the committee and I'll yield back the balance of 
my time.
    Chairman Royce. Thank you, Mr. McCaul.
    We now go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and thank you and the 
ranking member and all my colleagues for that leadership and I 
welcome back Mr. Lowenthal to our committee and sitting here. 
Thank you for your work on the Cambodia Democracy Act.
    I want to--I support all these bills here today. I just 
want to make a comment on two of them.
    The first one, the Special Envoy to Monitor and Combat 
Anti-Semitism Act of 2017, and I think we all know that global 
anti-Semitism is, unfortunately, on the rise.
    Jewish communities face bigotry and violence at levels not 
seen in decades. I want to give an example--Mireille Knoll, an 
85-year-old Holocaust survivor living in Paris, loved by 
friends and neighbors, known for welcoming everyone in her 
home, in March an attacker broke into her apartment, stabbing 
her 11 times and burning her alive.
    The French Government described it as anti-Semitic--yes, 
you would say that. She had escaped the Holocaust only to be 
brutally murdered in her own home just because she was Jewish.
    According to a study, Europe's largest Jewish communities 
are experiencing a normalization and main streaming of anti-
Semitism not seen since World War II and yet--and this is--I do 
not understand this--nearly a year and a half into this 
administration, a Special Envoy to monitor and combat anti-
Semitism position be responsible for--responsible for 
developing and implementing policies to combat anti-Semitism 
worldwide, this position remains vacant.
    And I just want to say that I think it's dangerous and it's 
shameful and--because combating anti-Semitism must be a foreign 
policy priority. So this important legislation, it elevates the 
role of our anti-Semitism envoy to that of Ambassador and 
requires him or her to report directly to the Secretary of 
State.
    I'd also like to draw attention to the BURMA Act of 2018. 
Last fall, we had a hearing in this committee about the 
Rohingya crisis and last week the Democratic Working Women's 
Group heard from U.N. Refugee Agency's goodwill ambassador, 
Kristin Davis, an actress and humanitarian, and I think we have 
heard this from my other colleagues--about more than 700,000 
Rohingya refugees have been forced to flee Burma by security 
forces--villages burned, unarmed civilians shot, women and 
girls assaulted.
    The United States Government has called these actions 
ethnic cleansing and many in the international community 
believe it's genocide, and that's why this bill is so 
important.
    It imposes sanctions on those who have committed acts of 
violence and limits security assistance to Burma until it's 
certified that human rights abuses have ended, like the horror 
of a mother who was forced to stand in a river at gunpoint, 
holding her child in her arms as she squeezed her baby tight.
    Soldiers clubbed her in the face, tore her child out of her 
arms, hurled them into a fire, and then dragged her into a 
house where she was gang raped. It's hard to even say this.
    And just, unbelievably, she's one of hundreds of thousands 
of Rohingya refugees who are either women or children in 
refugee camps in Bangladesh.
    Fortunately--I want to underline this--the U.N. Population 
Fund is on the ground with midwives and mobile health camps to 
care for survivors of rape and conduct information sessions to 
stop human trafficking.
    And since we all care about this tragedy, I want to point 
out that this administration has cruelly cut off funding to the 
U.N. Population Fund for the second year in a row, leaving it 
to the rest of the international communities to fill in the 
gap.
    With monsoon season approaching, floodings and disease 
outbreaks expected, many of the lives of these refugees who 
have suffered so much are already going to get harder.
    So, again, I strongly support the adoption of this bill and 
I urge my colleagues to look beyond and recognize that our 
response to a humanitarian crisis will not be sufficient unless 
we restore the funding to the U.N. FPA. I thank my colleagues 
and I yield back.
    Chairman Royce. Thank you.
    We go to Congresswoman Ann Wagner from Missouri.
    Mrs. Wagner. I thank you, Mr. Chairman.
    I am speaking today in support of the Elie Wiesel Genocide 
and Atrocities Prevention Act, a bill I introduced to improve 
U.S. efforts to prevent mass atrocity crimes.
    The legislation honors the legacy of Nobel Laureate Elie 
Wiesel and his life work to fight evil around the world. Mr. 
Wiesel was just 15 years old when the Nazis deported him and 
his family to Auschwitz.
    He was the only member of his family to survive, and having 
witnessed the near total destruction of his people, he spent 
his life defending the persecuted.
    As Mr. Wiesel understood so well, the true horror of 
genocide is that it is preventable. We are haunted by repeated 
failures and missed opportunities to end these tragedies before 
they begin and I know everyone in this room agrees that there 
is more the United States can and must do to help vulnerable 
communities and persecuted people around the world.
    The reality is that good intentions and platitudes like 
``never again'' have not prevented the deaths of hundreds of 
thousands of civilians at the hands of the Assad regime nor the 
ethnic cleansing of Rohingya Muslims in Burma.
    It is past time to take a clear-eyed look at our policy and 
programmatic mechanisms for atrocity prevention and ask 
ourselves what can we do better.
    The U.S. Government has the capacity to effect real change 
and the Elie Wiesel Act expresses Congress' strong support for 
better utilization of existing resources, particularly the 
United States Atrocities Prevention Board, which is dedicated 
to coordinating U.S. atrocity prevention and response, and the 
Complex Crisis Fund, which supports agile efficient responses 
to unforeseen crises overseas.
    The bill also expresses the Congress' belief that the 
Atrocities Prevention Board should conduct outreach with civil 
society groups and NGOs to receive assistance for its efforts 
and provide greater public understanding of the work of the 
board.
    Additionally, we require the administration to evaluate 
existing prevention efforts, report on countries at risk of 
genocide and mass atrocity crimes, and recommend concrete 
improvements to our early warning and response systems.
    The bill also mandates that U.S. Foreign Service officers 
are trained in atrocities recognition and response. Should this 
bill become law, America's diplomats will be better equipped to 
respond to conflict and act before violence spirals out of 
control.
    The Elie Wiesel Act establishes that the official policy of 
the United States is to regard atrocity prevention as a core 
national security interest and to address root causes of 
conflict through our humanitarian, development, and strategic 
endeavors.
    Let me be clear. Genocide is preventable and the United 
States is a global leader in genocide and atrocities response. 
But we must ensure that our efforts are better targeted toward 
prevention so that no one ever becomes a victim of violence in 
the first place.
    H.R. 3030 is an important first step and I thank the 
committee and the many civil society organizations that have 
come alongside us for their strong support of this legislation.
    I yield back.
    Chairman Royce. Congresswoman Dina Titus from Nevada.
    Ms. Titus. Thank you, Mr. Chairman, and thank you and 
Ranking Member Engel for holding this markup on these important 
bills.
    I am a co-sponsor of several of them and I support all the 
legislation being considered. I also want to extend my thanks 
to the many people aforementioned who worked so hard to bring 
this legislation before us.
    I am proud to co-sponsor H.R. 1911, the Special Envoy to 
Monitor and Combat Anti-Semitism Act. This elevates and empower 
the position of the Special Envoy so that the United States can 
continue to lead in combating anti-Semitism globally.
    We see a rise in anti-Semitic incidents, threats, and 
rhetoric around the world these days, and hateful groups and 
individuals are now empowered by being able to connect and 
coordinate online.
    We must show other countries that the United States takes 
combating anti-Semitism seriously and this starts with high-
profile leaders in the administration.
    But it's not just this Special Envoy position that remains 
vacant at the State Department. Others include the Special 
Envoy for Human Rights of LGBTI Persons and the Special Advisor 
for International Disability Rights.
    By leaving these important roles vacant, we are 
relinquishing U.S. leadership in fighting violence, hatred, and 
discrimination among other targeted populations.
    So I hope that Secretary Pompeo will make appointing 
qualified people to these important positions a priority early 
in his tenure.
    I am also a co-sponsor of H.R. 3989, the Protecting 
Diplomats from Surveillance Through Consumer Devices Act, and I 
thank Congressman Castro and McCaul for their quick response to 
the public release of GPS tracking data of U.S. personnel and 
activities abroad.
    Our policies and security must keep up with advances in 
technology to protect our diplomats, service members, and other 
personnel serving overseas.
    So I look forward to supporting these bipartisan bills and 
seeing their swift passage on the House floor.
    And I yield back.
    Chairman Royce. Thank you.
    We go to Chairman Ted Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and I'd like to 
congratulate you and the ranking member for another bipartisan 
markup. I think it's just a credit to you and what you've done.
    And I'd also like to thank you for including the 
legislation our team authored with the help of this committee--
the Cambodian Democracy Act of 2018 in this markup today.
    I want to thank you, Ranking Member Engel, Mr. Sherman, Mr. 
Chabot, and Mr. Lowenthal for their support as well. This ANS 
includes language from Mr. Lowenthal's House Resolution 661. So 
I want to once again thank him for working with us in a 
bipartisan manner. I appreciate it, Alan.
    As you well know, Cambodia is set to hold general elections 
in just 2 months. So the inclusion of this legislation is very 
timely.
    Following regional elections last year and the 2013 general 
elections, opposition parties saw unprecedented gains, helping 
to consolidate the opposition movement.
    Many observers believe that in July's national election the 
CNRP would have won an unprecedented parliamentary majority. 
Unfortunately, Cambodia's authoritarian leader, Hun Sen, had 
other plans.
    Over the last few years, Hun Sen's brutal consolidation of 
power played out on numerous fronts. Hun Sen has chilled 
support for the opposition by threatening to deploy the 
military if elections don't go his way and has used his control 
of the government to dismantle threats to his grip on power.
    Illustrations of such, 2 years ago, the CNRP lawmakers were 
savagely dragged from their cars and beaten by Hun Sen's 
bodyguards while the perpetrators served token sentences. They 
were then promoted to colonel barely 2 weeks after being 
released from prison. Such is the reward for crushing the 
opposition.
    Last September, authorities arrested Kem Sokha, the leader 
of the CNRP, and charged him with treason, allegedly for 
participating in an American plot to undermine Hun Sen's 
regime.
    Cambodia's Supreme Court followed up on this act by 
dissolving the CNRP, again citing the party's involvement in an 
alleged U.S.-backed plot.
    The regime has also shut down the Office of National 
Democratic Institute, a preeminent NGO that is active in 
promoting democracies around the world, and forced the closures 
of independent media outlets that challenged its control over 
information.
    Radio Free Asia, the Voice of America, and other 
publications and radio stations have been shuttered. To shine a 
light on these abuses, late last year we held a hearing 
entitled ``Cambodia's Descent'' in which we heard from experts 
including Mona Kem, the daughter of imprisoned opposition 
leader, Kem Sokha, on Cambodia's crackdown on political 
opposition and civil societies.
    As Mona Kem testified, we must place targeted financial 
sanctions on Cambodian Government officials identified as 
undermining democracy. This bill does precisely that and is a 
product of many of the recommendations made at that hearing.
    We must send a signal to Hun Sen and his CPP cronies that 
they cannot deny the freedoms that the Cambodian people yearn 
and desire.
    Although Cambodia often does not get the attention it 
deserves, the human rights and democracy in Cambodia have broad 
implications for the region and the world.
    Cambodia is a member of ASEAN, the premier international 
forum in Southeast Asia, with nine other nations and accounts 
for 633 million people and $2.5 trillion in trade.
    Every one of its 10 members must agree in order for the 
bloc to act. So any nation operating outside the bounds of 
humanity and decency will have an outsized effect on the entire 
group.
    This is such an important issue not just for the Cambodian 
people but for that whole region and, really, for the rest of 
the world.
    Again, I thank the chairman and ranking member for 
considering this measure today and I want to thank my 
colleagues for their support as well.
    I yield back. Thank you.
    Chairman Royce. Thank you, Mr. Yoho. We go now to Mr. Brad 
Schneider of Illinois.
    Mr. Schneider. Thank you, Chairman Royce.
    I want to thank the chairman and ranking member for holding 
today's markup and, in particular, for your leadership in 
bringing this legislation before our committee this morning.
    In particular, I am proud to join Congressman Chris Smith 
and Ranking Member Engel in introducing H.R. 1911, the Special 
Envoy to Monitor and Combat Anti-Semitism Act of 2017.
    This important bill would elevate the Special Envoy to the 
rank of Ambassador and today's amendment in the nature of a 
substitute would require the President to nominate someone for 
this position no later than 90 days after the bill's enactment 
and no more than 120 days after the position is vacated.
    I am extremely concerned and frustrated that after many 
pleas to do so this adminsration has yet to fill the position 
of Special Envoy to Monitor and Combat Anti-Semitism, 
especially given the rise in anti-Semitism across the globe.
    We need to do all we can to support our allies and combat 
anti-Semitism wherever it manifests itself, and I hope the 
administration sees the value in this position and will fill it 
soon.
    I am also pleased so support H.R. 3030, the Elie Wiesel 
Genocide and Atrocities Prevention Act, of which I am a co-
sponsor. I appreciate the work of my colleagues, Congresswoman 
Wagner and Congressman Crowley, in sponsoring this bill and the 
support from many stakeholders including the Holocaust Memorial 
Museum, Friends Committee on National Legislation, to name just 
a few.
    Elie Wiesel taught us that we must never forget the 
atrocities committed during the Holocaust and that we must do 
everything in our power to ensure this type of war never 
happens again.
    Unfortunately, hatred, persecution, and genocide continue 
to unfold in many parts of the globe and therefore legislation 
such as the Elie Wiesel Genocide and Atrocities Prevention Act 
is still necessary.
    This bill affirms the importance of continuing to 
strengthen our Government's efforts to prevent and respond to 
atrocities and states that it is in our national security 
interests to prevent genocide and other atrocities.
    The bill also takes important steps to require training for 
Foreign Service officers who are often at the front lines so 
they can better detect the early warnings signs of potential 
violence and atrocities.
    I also thank the chairman for including my amendment to 
H.R. 5626, the Intercountry Adoption Information Act of 2018 to 
ensure we know the date upon which a country implements a 
policy to prevent or prohibit adoptions involving immigration 
to the United States.
    Adopting a child can be a long, but nevertheless life-
transforming, process. So we owe it prospective parents to 
ensure they have useful and up-to-date information about 
foreign country adoption policies.
    Finally, I am pleased to see inclusion of the BURMA Act in 
today's markup. The violence of human rights abuses committed 
by the Burmese military and security forces against the ethnic 
Rohingya in Burma's Rakhine State since August 2017 are truly 
horrific.
    Nearly 700,000 Rohingya refugees have fled and are living 
in Bangladesh. I hope this bill draws the attention of the 
Burmese Government and security establishment and that they 
will stop this violence and allow Rohingya refugees to safely 
return home.
    I, again, thank the chairman and the ranking member for 
convening today's markup and with that, I yield back.
    Chairman Royce. Thank you.
    We go now to Mr. Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    I'd like to begin briefly on 5626, Intercountry Adoption 
Information Act. I think, Mr. Chairman, that this is an 
extraordinary piece of legislation and that's highlighted by my 
personal experience as a member in this body wherein I've come 
to know a constituent who spent 7 years working to adopt a 6-
year-old child--that is, she started before the child was 
born--from a foreign nation only to have been wrung through the 
process such that she's traveled back and forth to the African 
continent 14 times and spent countless tens of thousands, 
probably more, dollars by virtue of the fact that we did not 
receive information or she did not receive information with 
regard to the change of the nation from which she chose to 
adopt this child as it related to their status as a member of 
the Hague Convention on Adoption.
    So that we could change this one life story of which I know 
and so many others by virtue of this legislation is testimony 
significant and sufficient in my regard--in my estimation to 
justify this fine piece of bipartisan legislation.
    Moving on, the Sam Farr Peace Corps Enhancement Act really 
recognizes the ability of the Peace Corps to do in a very cost 
effective way what America tends to not do so well for itself.
    That is to say, in a world where we dominate mass and 
global media, if images of American seen by foreign nationals 
are of violent car chases, drug dealers, and philandering 
perhaps an opinion of the United States might be poor.
    But when your first image of America is of a volunteer who 
seeks to bring clean water to your village, perhaps then your 
image of America will be positive.
    And that, Mr. Chairman, is a step toward creating a world 
with peace and opportunity expanded regardless of race, 
ethnicity, religion, or geographic location and therefore, too, 
also a worthwhile bill.
    From there I'd move to H.R. 1911 and the promotion of the 
envoy to an Ambassador status as it relates to monitoring and 
pursuing anti-Semitism.
    It strikes me that the worst elements of the BDS movement 
as it relates to Israel and the actions of Israel and the 
Jewish-based nation state that it is rises to that level.
    So many accounts have been put forth by my colleagues on 
both sides of the aisle today of the experiences of Jewish 
people living not only in Israel and across the world but even 
in nations where one would think the lessons of anti-Semitism 
would be learned like Germany, like France, torn from 
contemporary news sources.
    And so it is time to recognize that indeed in the words of 
my colleague, Mr. Sherman, and the Jewish community oftentimes 
is a canary in a coal mine, and promotion to Ambassador status 
of this position is one that will help us, hopefully, avoid 
repeating the mistakes of the past.
    Moving to H.R. 3030 and tangentially to H.R. 5819 and 5754, 
and I say tangentially because both of these nations have 
experienced things that one reasonable observer might well call 
genocide within the last two generations, I think it's 
noteworthy not only to take a leading role in combating 
genocide but also to acknowledge the prevalence of this 
horrific practice in the world today.
    All too many people are all too well aware, and some are 
not, of the horrific outcomes of the genocide perpetrated by 
the Germans during the Second World War.
    But also might I point out that in the last 30 years there 
was a genocide in Bosnia with 2.2 million people displaced and 
up to 200,000 killed, up to 50,000 rapes.
    In Rwanda, where 1 million people, it is estimated, died in 
100 days. That's 10,000 human lives per day for 100 days, and 2 
million were displaced.
    The genocide and mass displacement in Iraq and Syria where 
up to 6 million displaced individuals seek simply a place to 
live and sleep and raise families safely, where the Christian 
population of the nation of Iraq estimated at 1.5 million in 
2004 is today perhaps one-sixth of that, where Yazidis and 
Assyrians and Mandeans have been rooted out and entire 
communities and cultures destroyed by ISIS and their ilk, the 
Rohingya genocide again brought up in the BURMA Act, the 
Cambodian genocide where a Communist utopia resulted in one-
quarter of the entire population of the country being 
massacred, the Armenian genocide where 1.5 million Christians 
were killed by the Ottoman Turks because they were a religious 
minority, and the Kurdish genocides--with an S--that have taken 
place repeatedly throughout history and which we may be on the 
verge of now--if the United States cannot adopt a leading role 
in advocating against this sort of violence, who will?
    If this body will not speak, who will? And so, Mr. Chairman 
and Ranking Member, it is with pride that I have the 
opportunity to support these measures and be a participant in 
this process because the names of the peoples whose lives we 
save will never be known.
    But, tragically, the result of inaction would be that the 
names of the people who died might never be known as well.
    With that, I'd yield back.
    Chairman Royce. Mr. Espaillat of New York.
    Mr. Espaillat. Yes, you got it right.
    Thank you, Mr. Chairman, and of course, I want to thank 
Ranking Member Engel. Thank you so much for continuing this 
important bipartisan work of this committee.
    Several of the bills today take a common thread, which to 
prevent genocides and mass atrocities and to combat patterns 
that may lead to such horrible events.
    We, as leaders in the world community of nations, have a 
responsibility to do our part in ensuring that these heinous 
crimes never, never happen again.
    That is why I am a proud co-sponsor of the Elie Wiesel 
Genocide and Atrocities Prevention Act. Elie Wiesel was not 
just defined by his experience surviving the Holocaust.
    Rather, he used that experience to drive humanitarian work 
that he devoted his whole life to. This bill would require 
training of Foreign Service officers on recognizing early 
warnings signs of mass atrocities and will further require an 
annual report to Congress on potential threats of mass 
atrocities.
    I hope that this bill will be a stronger starting point for 
improving our Government's responsiveness to man's atrocities 
and will ensure that we are equipped to mitigate a response to 
emerging crises around the world.
    As we saw in the Anti-Defamation League report, anti-
Semitic incidents were up 60 percent in 2017. The Special Envoy 
to Monitor and Combat Anti-Semitism Act is as important as 
ever.
    This act will bring forward the position of Special Envoy 
appointed by the President and the Senate, elevating it to the 
rank of Ambassador and directly reporting to the President.
    Obviously, it will ensure that our Government has a 
stronger coordinated effort to monitor and combat anti-
Semitism.
    We all know the horrible history of anti-Semitism and it is 
incumbent upon all of us to opposed it whenever and wherever we 
see it.
    This rises not only to the level of genocide prevention but 
also to violent attacks we have seen across the world and 
through just everyday language that is used to demean and 
attack the Jewish people.
    We know that small acts of anti-Semitism can lead to 
further intolerance, and I am proud to support a bill that 
recognizes the important work we must undertake to combat 
intolerance of any kind.
    We have seen far too many times occurrences of mass 
atrocities in recent years. The Rohingya people have endured 
terrible unthinkable violence at the hands of the Burmese 
military.
    As this bill I just spoke about entails, we must stand up 
to these horrific human rights violations wherever they occur.
    The BURMA Act will sanction and hold accountable the 
Burmese military and security forces responsible for the ethnic 
cleansing of the Rohingya people and further serve to encourage 
a full democratic transition in this country.
    We must be consistent in our values and our commitment to 
combat genocide and we must work with the people of Burma to 
support national reconciliation and constitutional reforms that 
ensure that violence of this kind never, never happens again.
    Thank you, Mr. Chairman, and I yield back the remaining 
part of my time.
    Chairman Royce. Mr. Dan Donovan of New York.
    Mr. Donovan. Thank you, Mr. Chairman.
    Mr. Chairman, I support all the bills here today but 
especially the Elie Wiesel Genocide and Atrocities Prevention 
Act of 2017 and the BURMA Act of 2018, both of which I have co-
sponsored.
    It saddens me that we still need bills to combat genocide. 
We must do whatever we can to save lives and end destabilizing 
conflicts across the globe.
    This committee will continue to work in a bipartisan 
fashion as always to combat these atrocities and with that, Mr. 
Chairman, I yield back the balance of my time.
    Chairman Royce. Thank you.
    Any other members seeking recognition?
    Hearing no further requests, the question occurs on the 
items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it and the 
measures considered en bloc are agreed to.
    Without objection, each measure in the en bloc is ordered 
favorably reported as amended as a single amendment in the 
nature of a substitute and staff is directed to make any 
technical and conforming changes and the chair is authorized to 
seek House consideration under suspension of the rules.
    So that will conclude our business for today and I want to 
thank Ranking Member Engel and all of the committee members for 
their contributions and assistance with this markup today.
    We stand adjourned.
    [Whereupon, at 11:57 a.m., the committee was adjourned.]

                                    
                                   
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
